<html>
<title> - HUMAN CAPITAL NEEDS OF THE U.S. CUSTOMS AND BORDER PROTECTION ``ONE FACE AT THE BORDER'' INITIATIVE</title>
<body><pre>[Senate Hearing 110-304]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-304
 
  HUMAN CAPITAL NEEDS OF THE U.S. CUSTOMS AND BORDER PROTECTION ``ONE 
                    FACE AT THE BORDER'' INITIATIVE 

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                     U.S. GOVERNMENT PRINTING OFFICE

38-990 PDF                 WASHINGTON DC:  200?
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






































        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
                Lisa Powell, Chief Investigative Counsel
               Jodi Lieberman, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
       Theresa Manthripragada, Minority Professional Staff Member
             David Cole, Minority Professional Staff Member

                    Jessica K. Nagasako, Chief Clerk
































                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3
    Senator Warner...............................................    12
    Senator Levin................................................    15

                               WITNESSES
                       Tuesday, November 13, 2007

Paul M. Morris, Executive Director, Admissibility Passenger 
  Programs, Office of Field Operations, U.S. Customs and Border 
  Protection, Department of Homeland Security....................     5
Richard M. Stana, Director, Homeland Security and Justice Issues, 
  U.S. Government Accountability Office..........................     7
Colleen M. Kelley, National President, National Treasury 
  Employees Union................................................    26

                     Alphabetical List of Witnesses

Kelley, Colleen M.:
    Testimony....................................................    26
    Prepared statement...........................................    64
Morris, Paul M.:
    Testimony....................................................     5
    Prepared statement...........................................    35
Stana, Richard M.:
    Testimony....................................................     7
    Prepared statement...........................................    49

                                APPENDIX

Background.......................................................    78
Questions and responses for the Record from:
    Mr. Morris...................................................    84
    Mr. Stana....................................................    98
GAO report entitled ``Border Security: Despite Progress, 
  Weaknesses in Traveler Inspections Exist at Our Nation's Ports 
  of Entry,'' GAO-08-219, November 2007..........................   101

 
                       HUMAN CAPITAL NEEDS OF THE


 
                   U.S. CUSTOMS AND BORDER PROTECTION


 
                 ``ONE FACE AT THE BORDER'' INITIATIVE

                              ----------                              


                       TUESDAY, NOVEMBER 13, 2007

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Levin, Voinovich, and Warner.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    Today's hearing, Human Capital Needs of the U.S. Customs 
and Border Protection ``One Face at the Border'' Initiative, 
will examine the results of a Government Accountability Office 
report entitled ``Border Security: Despite Progress, Weaknesses 
in Travel Inspections Exist at Our Nation's Ports of Entry.'' 
The GAO report details troubling shortcomings in inspections by 
Customs and Border Protection (CBP) at land and air ports of 
entry.\1
\\---------------------------------------------------------------------------
    \1\ The GAO report appears in the Appendix on page 101.
---------------------------------------------------------------------------
    Each year CBP processes more than 400 million pedestrian 
and passenger entries, as well as 20 million containers with 
goods, into the United States. The vast majority of visitors to 
the United States have come here legally for tourism, business, 
work, studies, or other activities. But the GAO report makes 
clear that thousands of people each year are entering the 
country illegally through official ports of entry.
    I requested that GAO do this study because I was concerned 
that CBP was not hiring enough officers to screen travelers at 
ports of entry and that CBP officers were not receiving the 
training they need to do their jobs properly. This report 
reinforces my concern.
    GAO investigators who visited border crossings found CBP 
officers missing from their inspection booths at some 
locations. At other locations officers failed to ask 
investigators for their identification or travel documents. GAO 
investigators also saw video of CBP officers waving vehicles 
through inspection booths without speaking with the passengers. 
In short, CBP at times conducts inspections that are unlikely 
to detect people and goods that should not enter the country.
    Insufficient staffing and training seem to be the central 
reasons for these inadequate inspections. CBP simply does not 
have anywhere near enough CBP officers working at ports of 
entry, and officers are not provided the training they need to 
do their jobs effectively. CBP's own staffing model indicates 
that the agency needs to hire several thousand additional CBP 
officers.
    Because of staffing shortfalls, CBP officers are being 
forced to work extensive overtime, sometimes 16-hour shifts. It 
is not realistic to expect an officer to stay as alert and 
focused as needed for 16 straight hours. Long overtime also 
leads to CBP officers calling in sick from exhaustion, 
worsening the staffing shortages.
    CBP has made progress in improving its training programs, 
but staffing shortages have forced the agency to cut back on 
its training. New officers at land border crossings are 
supposed to receive 12 weeks of basic on-the-job training when 
they start. Most CBP officers receive less than that. Some 
receive as little as 2 weeks of on-the-job training, and more 
advanced training courses often are canceled or shortened 
because there are not enough officers to cover the inspection 
booths.
    As a result, officers are being placed in situations 
without the training they need to do their jobs.
    Unfortunately, but predictably, staffing shortages, forced 
overtime, and inadequate training contribute to serious morale 
problems in CBP.
    Under the circumstances, it is not surprising there is high 
turnover among CBP officers. At some ports of entry, CBP is 
losing officers faster than it can hire replacements. Attrition 
is a major factor in understaffing. This is a vicious cycle. 
Understaffing creates problems that lead to turnover, and high 
turnover makes it very difficult to address the staff 
shortages.
    As the GAO report notes, some CBP officers are leaving to 
take positions that provide law enforcement officer benefits. 
Even though CBP officers receive mandatory law enforcement 
training, carry firearms, and make arrests, they do not receive 
the same enhanced pension benefits that other Federal law 
enforcement officers, including Border Patrol agents, receive. 
Fixing this inequity would help mitigate the high turnover of 
CBP officers.
    We owe the brave men and women charged with keeping 
terrorists, illegal drugs, and other dangerous people and items 
out of the country much better training and working conditions.
    GAO also found weaknesses in the infrastructure of land 
border crossings that allow people to bypass inspection booths 
entering the country without inspection. The physical 
environment at some land border crossings is not conducive to 
thorough inspections. In many ports of entry, visitors wait 
hours to enter the country because there are not enough 
inspection booths.
    As the Senator from Hawaii, I fully understand the 
importance of facilitating efficient entry into the country for 
legitimate travel and trade. Tourism is almost a $12 billion 
industry in Hawaii, the largest sector of our economy, and 
foreign visitors contribute enormously to Hawaii's and the 
Nation's economy.
    Approximately $4 billion in capital improvements in the 
facilities at land border crossings are needed, but there is 
only approximately $250 million in the President's budget for 
infrastructure improvements.
    Securing our Nation's ports of entry is a critical national 
security priority. At the same time, we must never lose focus 
on the fact that these ports welcome millions of tourists, 
business people, students, immigrants, and refugees who make 
this Nation more economically and culturally vibrant. As the 
President's new National Strategy for Homeland Security States, 
achieving a welcoming America must remain an important goal.
    It is time that we invest in the infrastructure to make our 
Nation's ports of entry more secure, inviting, and efficient. 
One approach would be to examine ways of redesigning the 
gateways to this country to optimize security and maximize 
processing rates while improving the work environment of our 
Customs and Border Protection officers.
    I look forward to learning more about CBP's successes and 
challenges, in particular, staffing and infrastructure issues. 
I want to thank our witnesses for being here today to discuss 
these important issues, and before calling on my friend, 
Senator Voinovich, for his opening statement, I would like to 
say that there is a vote scheduled shortly. Senator Voinovich 
will chair the hearing while I vote, and he will recess briefly 
after his statement, until I return. We will try it that way. 
But we will see how it works.
    So at this time, let me call on Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. If things work 
the way they work in the Senate, we may not have the vote at 
that time, so I am going to make my statement rather short. 
Hopefully we will get a chance to hear the witnesses before we 
have to go and vote.
    First of all, I want to thank you very much for holding 
this hearing. I think you did a wonderful job in explaining 
what the problems are, and I am not going to reiterate them. I 
think you have done a terrific job in laying them out for the 
witnesses and for the people that are here today.
    Second, I think that we should make it very clear that the 
budget of this agency is really robust. As you know, we went 
ahead and passed the Homeland Security budget. Between the 
White House and the Homeland Security Appropriations Committee, 
they increased the budget by 23 percent over FY 07. And if you 
take the $3 billion that we put in at the end, we are talking 
about almost a 47-percent increase in the amount of money for 
border security and immigration enforcement over FY 07.
    So the issue is not money. What are we doing with the 
money? I think we all have to understand that security at the 
borders is a cornerstone to our national security. There are 
326 land, air, and sea ports, and it entails more than 
preventing individuals from crossing these borders illegally. 
It includes protecting our economy from illegal goods, which is 
a big problem today. That is why Senator Evan Bayh and I have 
introduced a bill to deal with counterfeit goods.
    CBP holds this responsibility, and the American people are 
grateful to the thousands of officers who every day accept this 
responsibility. They do a very good job. They are conscientious 
workers. Nowhere in government is it more important than at CBP 
that you have to have the right people with the right knowledge 
and skills at the right place at the right time so that they 
are going to be successful. However, as the GAO will discuss in 
its testimony, Customs and Border Protection faces significant 
challenges in getting the right people with the right skills in 
place. Two of the three components that today make up CBP came 
to DHS with significant operational and management challenges. 
One of the problems when we created the Department of Homeland 
Security was not recognizing that a lot of the agencies being 
merged were already in trouble. And here we are, same problems 
today.
    Senator Akaka and I have been pushing legislation that 
would require a Chief Management Officer at DHS. A CMO would 
have a 6-year term that would concentrate on making the 
management changes in the Department of Homeland Security. 
Without a strong leader who can develop the proper metrics and 
an appropriate strategic plan, we will be here 5 years from 
now, and it will be the same story. And, quite frankly, as a 
former mayor and governor, I am fed up with it. We must do 
better.
    For more than 4 years, Customs and Border Protection has 
not been able to identify the concrete steps they will take 
to--in other words, they have not been able to ensure it has 
the skilled workforce in place to meet its mission. Senator 
Akaka did a great job of explaining the turnover rate, the 
training, and so forth. CBP must find and take immediate steps 
to address the needs of its workforce today, not in 1 or 2 
years but today.
    I think it is ridiculous that we do not have performance 
measures for the Traveler Inspection Program that identifies 
Customs and Border Protection's effectiveness in apprehending 
inadmissible aliens and other violators. It is just absolutely 
unacceptable. One of the things that this Subcommittee is 
trying to do is get the Department to develop those metrics. 
Before this Administration leaves, we want the strategic plan 
and we want the metrics. When the next Administration comes in, 
we want to be able to say here is where you are in performing 
and how you are going forward to get the job done. That is the 
only way we can do it, Senator Akaka. If we do not do that, 
then we will get a new Administration in, and we will start all 
over again.
    So I am anxious to hear the witnesses today. Thank you, Mr. 
Chairman.
    Senator Akaka. Thank you very much, Senator Voinovich.
    Now you know how passionate he can be, and he has been 
working really hard on human capital problems, and really it is 
the basis of what we are talking about.
    I want to welcome to the Subcommittee today's first panel 
of witnesses: Paul Morris, who is the Executive Director of 
Admissibility Passenger Programs in the Office of Field 
Operations at U.S. Customs and Border Protection; and Richard 
Stana, Director of Homeland Security and Justice Issues at the 
Government Accountability Office.
    I think you know that it is the custom of the Subcommittee 
to swear in all witnesses, and I would ask both of you to stand 
and raise your right hand. Do you solemnly swear that the 
testimony you are about to give this Subcommittee is the truth, 
the whole truth, and nothing but the truth, so help you, God?
    Mr. Morris. I do.
    Mr. Stana. I do.
    Senator Akaka. Thank you very much. Let it be noted for the 
record that the witnesses answered in the affirmative.
    I want the witnesses to know that while your oral 
statements are limited to 5 minutes, your entire statements 
will be included in the record. So, Mr. Morris, will you please 
proceed with your statement?

      TESTIMONY OF PAUL M. MORRIS,\1\ EXECUTIVE DIRECTOR, 
 ADMISSIBILITY PASSENGER PROGRAMS, OFFICE OF FIELD OPERATIONS, 
  U.S. CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Morris. Good morning, Chairman Akaka and distinguished 
Members of the Subcommittee. I am pleased to be here today to 
discuss how the Department of Homeland Security, particularly 
Customs and Border Protection (CBP)--is building a more secure 
and efficient border by continuing to strengthen our workforce 
and enhancing our traveler inspection processes. I would like 
to begin by expressing my sincere thanks to the men and women 
of CBP who work on the front lines every day protecting this 
Nation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Morris appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    Since its creation in 2003, CBP has made significant 
progress in effectively securing our borders and protecting our 
country against terrorist threats. I am here today to discuss a 
recent report released by the GAO.
    First, CBP would like to express its disappointment for the 
inappropriate release of an ``Official Use Only'' version of 
the report and the misuse of statistics CBP supplied to GAO. We 
believe that the information released in the ``Official Use 
Only'' document could be detrimental to the effectiveness of 
CBP in carrying out our mission, and the misrepresentation of 
CBP's statistics discredits the work of our front-line 
officers.
    CBP is responsible for protecting more than 5,000 miles of 
border with Canada, 1,900 miles of border with Mexico, and 
operating 326 official ports of entry. Each day, CBP inspects 
more than 1.1 million travelers. Though the vast majority of 
the people CBP officers interact with are legitimate travelers, 
there are those who would seek to do us harm.
    To that end, CBP intercepts more than 21,000 fraudulent 
documents and interdicts more than 200,000 inadmissible aliens 
each year. Despite the assertions made by the GAO, during 
fiscal year 2007 alone CBP officers at our land, sea, and air 
ports of entry arrested nearly 26,000 individuals, including 
murderers, sexual predators, drug smugglers, and individuals 
with links to terror.
    DHS must be able to capitalize on our border inspection 
process. We must be able to verify the identity of all those 
who seek to enter. In partnership with the Department of State, 
we are working to secure our homeland by strengthening our 
ability to identify accurately all persons before they enter 
the United States. The Western Hemisphere Travel Initiative 
(WHTI) establishes these documentation requirements while 
continuing to facilitate the flow of legitimate trade and 
travel. Full implementation of WHTI will supply our officers 
with the technology and proper documentation to make 
admissibility decisions in a matter of seconds. This vital 
layer of security must be put in place as soon as possible and 
not be subject to repeated delays and endless new and ever 
shifting requirements. We must advance to a smarter, more 
efficient, and more secure border that includes these document 
controls.
    CBP constantly and continually monitors our activities and 
operations in the field. After noting weaknesses in our land 
border inspectional procedures, we mandated that all land 
border ports of entry increase the number of primary main 
queries being performed, with our final strategic goal to 
screen all persons arriving at ports. The implementation of 
WHTI, facilitative technology, and the requirement to present 
secure documents will raise these percentages even further. CBP 
has also implemented a new directive which defines policy 
regarding land border inspections.
    CBP uses a layered approach to monitor and assess 
compliance. In the field, we require management to monitor poor 
compliance with existing policies and procedures and conduct 
audits and assessments. CBP has also implemented a system to 
track our effectiveness. CBP conducts compliance examinations 
involving random selection of vehicles and air passengers that 
ordinarily would not be selected for an intensive examination 
through a program called COMPEX. However, we strongly disagree 
with the inferences and assumptions made by GAO in their report 
which were based upon the COMPEX statistics CBP supplied. GAO 
was told that COMPEX, prior to October 1 of this year, 
monitored customs law-related violations only and that these 
statistics could not be extended to immigration and 
agricultural violations. However, GAO chose to disregard our 
advisories and published misinformation.
    We have no greater asset than our human resources. CBP 
continues to increase its workforce, hiring 2,156 new CBP 
officers and 340 agriculture specialists in fiscal year 2007. 
Included in our 5-year strategic plan, we have an objective of 
building and sustaining a high-performed workforce by refining 
the recruitment and hiring processes, improving our retention 
capabilities, and enhancing deployment and staffing. We have 
developed a workload staffing model to better align resource 
needs and requests against levels of threat, vulnerabilities, 
and workload. However, we are challenged with the continuously 
expanding demand for our services as trade and travel to the 
United States continues to grow.
    We depend on the dedication and training of our front-line 
officers to conduct thorough inspections and make sound 
judgments. We have developed and implemented a comprehensive 
training curriculum. To make the best use of our training, we 
train our officers when they need to be trained and for the 
functions they are performing. This means that not every 
officer completes every training module but does receive the 
training needed to do the job performed.
    CBP has long recognized the need to improve our facilities 
and infrastructure to more effectively meet mission 
requirements. Unfortunately, the rapid evolution of CBP's 
mission, coupled with years of neglect, has left these vital 
assets in dire need of modernization and expansion. Expanded 
responsibilities and the deployment of enhanced technology have 
stretched our physical resources well beyond their capacity. In 
addition, CBP's infrastructure priorities have to compete with 
other Federal buildings and courthouses, and we receive only a 
small amount of the funds allocated. Although we are working 
with GSA to streamline the 7-year construction process, right 
now our facilities are stretched to the limit.
    Mr. Chairman and Members of the Committee, I appreciate 
this opportunity to testify before you, and I would be happy to 
answer any questions you may have.
    Senator Akaka. Thank you very much for your testimony.
    I was just informed that the vote is running out, so I am 
going to run and vote, and I am going to then be back in 10 
minutes or less. But in the meantime, this Committee will be in 
recess.
    [Recess.]
    Senator Voinovich [presiding]. Mr. Morris, I apologize that 
I was not able to hear your testimony, but I do not control the 
schedule.
    Mr. Stana, we are glad to have you here.

 TESTIMONY OF RICHARD M. STANA,\1\ DIRECTOR, HOMELAND SECURITY 
   AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Thank you very much. Chairman Akaka, Mr. 
Voinovich, Members of the Subcommittee, I am pleased to be here 
today to discuss GAO's report on CBP traveler inspections at 
our Nation's ports of entry.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stana appears in the Appendix on 
page 49.
---------------------------------------------------------------------------
    As you know, CBP is the lead Federal agency responsible for 
inspecting travelers who enter the United States. In carrying 
out this responsibility, over 17,000 CBP officers are charged 
with keeping terrorists and other dangerous or inadmissible 
people from entering the country while also facilitating the 
cross-border movement of millions of travelers and legitimate 
cargo. For fiscal year 2007, CBP had a budget of $9.3 billion, 
of which $2.5 billion was for border security and trade 
facilitation at ports of entry. My prepared statement 
summarizes the report we issued to you on November 5. In my 
oral statement, I would like to highlight three main points.
    First, CBP officers at the ports of entry have had some 
success in identifying inadmissible aliens and other violators. 
In fiscal year 2006, they successfully turned away over 200,000 
travelers who attempted illegal entry at the ports and seized 
more than 40,000 phony documents. But despite this success, 
weaknesses in inspection procedures resulted in many thousands 
of illegal aliens and other violators entering the country. 
This problem is not new, and previous attempts to fix it have 
not been fully successful. In 2003, we reported on several 
weaknesses in the CBP inspection process that permitted 
inadmissible aliens to enter the country, and we recommended 
improvements. In 2006, CBP identified weaknesses in its 
inspection procedures, such as officers waving vehicles into 
the country without stopping the vehicle or interviewing the 
driver or its passengers.
    CBP headquarters called for corrective actions in July 
2006, but our subsequent testing showed that significant 
weaknesses still existed. In several locations, we found, among 
other things, that travelers' nationality and admissibility 
were not always verified and inspection booths were not always 
staffed. In July 2007, CBP revised its policies and procedures 
for traveler inspections at land crossings to address such 
weaknesses. The new procedures call on CBP officers to carry 
out more rigorous inspections, such as handling the travel 
document of each traveler and, when possible, checking the 
document against law enforcement databases. They also call on 
CBP supervisors to monitor officer compliance with the new 
procedures and for CBP headquarters to do compliance testing. 
The extent that these actions are successful remains to be 
seen.
    My second point is that while new policies and procedures 
may help strengthen traveler inspections, they alone will not 
fully address the causes of the failed inspections. CBP's 
staffing model shows it may need up to several thousand new 
officers to properly operate its ports of entry. CBP managers 
at seven of the eight ports we visited told us that staffing 
shortfalls adversely affected their ability to carry out 
traveler inspections in a number of ways, including not having 
staff to carry out anti-terrorism programs and requiring 
extensive overtime to cover routine operations, which in turn 
can cause morale problems, fatigue, and a lack of back-up 
support. Officer attrition is a contributing factor. In some 
locations, it is sometimes difficult to hire enough staff to 
replace officers who leave, let alone fill open slots. Staffing 
shortfalls can also affect CBP's ability to provide both 
classroom and on-the-job training to officers. Port officials 
sometimes need to make the tough choice between allowing staff 
to go to training and improve their skills or require staff to 
forego training because they are needed to do inspections. 
Moreover, when training is provided, CBP does not measure the 
extent to which the courses are delivered to the officers who 
need it most, nor does it require new officers to demonstrate 
proficiency and required skills after they take the courses.
    My last point is that it is very important for CBP to know 
how effective it is in keeping dangerous people out of the 
country, where it would like to be, and what progress it is 
making on closing any gaps in meeting the goals. We examined 
CBP's performance measures for its Traveler Inspection Program, 
and while it has developed data that shows the number of 
persons who were apprehended, it has not yet created a 
performance measure to indicate its success in identifying 
inadmissible travelers from the millions of border crossers who 
pass through the ports of entry each year.
    In closing, having a sufficient number of well-trained and 
well-supervised CBP officers is important for the safety and 
well-being of our Nation. Alert CBP officers have interdicted 
dangerous travelers, such as the Millennium Bomber, but more 
needs to be done to ensure that this can be done consistently. 
Our work underscores the need for CBP to address weaknesses in 
its policies, procedures, and supervisory controls; to find 
ways to adequately staff its ports of entry, including 
developing and implementing strategies for retaining staff; and 
to improve classroom and on-the-job training programs for its 
officers. None of these actions alone can fix the problems we 
saw, but a coordinated and well-implemented effort could 
mitigate the risk and consequences of failed traveler 
inspections.
    Before I finish, I would like to address two points raised 
in Mr. Morris' opening statement.
    First, with respect to the leaking of a FOUO report, we did 
not leak a FOUO report. We issued a classified version which 
was released to the Committee on October 5 and embargoed for 30 
days, and an unclassified version which was released on 
November 5. We did not leak the contents of the classified 
report, although I do note with some confusion that the 21,000 
figure appears in Mr. Morris' official statement when that was 
supposed to be classified.
    Second, I want to point out with respect to COMPEX, we 
worked very carefully with CBP, the statisticians on our 
observations. Mr. Morris is correct that COMPEX speaks to what 
was seized. Who brought it into the country COMPEX is silent 
on. When we spoke to the statisticians, they told us it was 
both inadmissible aliens and other violators, which is the 
language we used in the report. CBP had an opportunity to 
correct that for the record at an exit conference and at two 
official comment periods and failed to do so. But if there is a 
way we could have clarified that for the record, we certainly 
apologize, and we would make that clearer, if asked.
    Thank you very much, and I look forward to answering any 
questions the Committee may have.
    Senator Voinovich. Thank you very much.
    Mr. Morris, I agree with the GAO that CBP needs to develop 
retention strategies for its officers and agriculture 
specialists and develop strategies to retain those staff. I 
recall at a hearing a couple years ago that there were some 
real problems with agriculture specialists, and maybe you can 
enlighten me on where you stand in terms of those folks.
    I am dismayed that this process will not be complete until 
2009. In other words, how do you retain these people? In this 
time frame, too many talented agents will continue to leave 
CBP. In connection with this long-term goal, CBP needs short-
term actions it can take to help slow attrition.
    Has CBP identified short-term initiatives it can implement 
to address attrition needs? And if not, will you commit to a 
parallel path of long- and near-term actions that can be taken 
and report those back to the Subcommittee by the end of the 
year? Basically, what I am saying is this: CBP has a retention 
problem and a long-term goal of solving it by September 2009. 
What do we do in the meantime to try and make sure that you do 
not have this continued turnover rate that you have been 
experiencing in the past?
    Mr. Morris. Thank you, Senator. I think that the Chairman 
did capture the issues that we have to deal with on a day-to-
day basis very well, and it is a vicious circle, that as we 
lose officers, it compounds the staffing issues that we have. 
And in some cases, at some ports of entry where it is more 
difficult to recruit officers, that can be much worse than in 
other places.
    We recognize that retention and attrition are very 
significant issues for the agency. Attrition has always been 
one that the border agencies have had to grapple with. We have 
looked at some targeted recruiting functions at particular 
areas of concern where we have the gravest concern with our 
staffing levels. We do want to continue to provide a 
comprehensive training package to our officers.
    In the surveys that we have seen regarding their 
satisfaction with their job, one of the items that was 
repeatedly brought up was the training that is provided to 
them.
    Senator Voinovich. Do you have the tools to hire people? 
One of the things that we have been working on the last 7 or 8 
years is to put agencies in the position where they can make 
the Federal Government an employer of choice. Are there things 
in personnel management that make it difficult for you to bring 
people on board? Is it a reputation that the agency is not the 
best place to work that discourages people? Just what is it 
that is causing you not to be able to bring these people on?
    Mr. Morris. Well, I am hopeful----
    Senator Voinovich. Wages? I mean, what is it?
    Mr. Morris. I am hopeful that it is not the reputation of 
the agency. We are striving to become the premier law 
enforcement agency with respect to border security. There has 
been a lot of emphasis placed on our training for our officers. 
We do provide that through our academy with an extensive 
training package that provides them with the essential basic 
tools for when they return to the port.
    Senator Voinovich. Is the starting salary relative to other 
enforcement agencies competitive?
    Mr. Morris. Well, starting salary is competitive with other 
Federal agency starting salaries for similar positions. 
Typically, they start at GS-5 level. Journeyman level brings 
them up to--after a period of 2 or 3 years, it would bring them 
up to about GS-11 level. They can then progress into 
management.
    But as you can imagine, a GS-5 perhaps on their own in a 
metropolis like Los Angeles or New York, they are going to have 
some difficulty making ends meet.
    Senator Voinovich. What does a GS-5 pay? What is the range?
    Mr. Morris. I am sorry, Senator. I do not know that off the 
top of my head.
    Senator Voinovich. So you are saying that like with the FBI 
and some agencies, if they are in big cities, the locality pay, 
in your opinion, is not adequate to keep those people on board?
    Mr. Morris. In the initial years, it is certainly difficult 
for them to make ends meet and satisfy their family 
requirements and other things on that level of pay.
    We also have an issue with attrition due to loss to other 
Federal agencies where the benefits packages are better. For 
instance, those that provide law enforcement coverage for their 
positions, such as criminal investigators or special agents, if 
they get additional pay and a better retirement package, there 
is not much that is going to keep them around if----
    Senator Voinovich. Is that in Homeland Security, or are you 
competing with agencies outside of Homeland Security?
    Mr. Morris. Within and outside the Department, sir.
    Senator Voinovich. Mr. Chairman, one of the things that we 
had asked the Department to do was to harmonize the pay within 
the Department so that we would not have the government 
competing with itself. The other was to look at the pay 
compared to other natural security agencies to see how they 
compared so you would not have this movement based on better 
benefits.
    So you are telling me today that there are agencies, 
national security agencies within Homeland Security that have 
better benefits than what you provide.
    Mr. Morris. It is primarily the difference between the 
Customs and Border Protection officer that does not have law 
enforcement coverage and other investigative positions that do 
have that coverage. That law enforcement coverage provides them 
with additional ways of payment such as administratively 
uncontrollable overtime and law enforcement retirement for 
which they qualify for after 20 years of service.
    Senator Voinovich. Do you have any kind of documentation or 
has GAO seen any documentation about the reasons why people 
leave and where they go?
    Mr. Stana. We know that about 25 percent of them go to 
other DHS components. It may be ICE; it may be Border Patrol. 
To understand why people leave, it is instructive to look at 
the OPM survey data that we had in the appendix to our report. 
A large majority, 88 percent, say they know the work is 
important; 83 percent said they like the kind of work they do; 
75 percent say that they like the work environment. So those 
are not really the issues.
    But if you look at the downside, 21 percent said they are 
not rewarded for high-quality work; 18 percent said poor 
performers are not dealt with adequately; 9 percent said pay 
raises depend on performance. And then there are other 
statistics like only a third say they have the sufficient 
resources to do their job; 30 percent say that CBP is able to 
recruit people with the right skills.
    When you take those kinds of statistics together, it paints 
the picture of a less than happy staff, a morale issue that has 
to be dealt with. I also might add that 20 percent of the 
workforce is eligible for retirement in the next 4 years, and 
that could have a devastating effect because typically the 
people who are the most senior are the ones who may be legacy 
Customs and legacy INS who understand the ins and outs of 
immigration law and the customs law. And these are the ones 
that the younger staff turn to when they are confused or they 
need guidance on how to handle certain situations.
    Senator Voinovich. Do you have the authority right now--and 
I will finish up with this. Do you have the authority to bring 
back annuitants?
    Mr. Morris. We have used rehired annuitants to a very 
limited extent, primarily because of pretty limited interest in 
coming back to work in the ports of entry.
    Senator Voinovich. Thank you.
    Senator Akaka [presiding]. Thank you very much, Senator 
Voinovich.
    Let me call on Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you very much, Mr. Chairman.
    First, I would like to thank you for your leadership in 
requesting this report. I have looked it over, and I think it 
is very well done, very well balanced. I have had a long 
association with the Government Accountability Office over the 
many years that I have been here, and I have a high regard for 
their work product.
    Mr. Morris, I commend you for saying you want to try and 
establish in your area of responsibility the best possible 
enforcement that America can get, and I, like your people, say 
I have got a lot of problems ahead of me, but I am going to 
continue to strive to achieve that. And I hope that the people 
under your jurisdiction take notice of this hearing today and 
the statement that you made on their behalf.
    I would simply draw your attention, Mr. Morris, to one 
provision in this report that was given to me about what the 
GAO found, and they said, ``However, the CBP has not 
established an internal control to ensure field office managers 
share their assessments with the CBP headquarters to help 
ensure that the new procedures are consistently implemented 
across all ports of entry and reduce the risk of failed 
traveler inspections.''
    Mr. Morris. Certainly, Senator. Customs and Border 
Protection has really a layered internal control mechanism in 
place, and I think that we are far ahead of other agencies in 
ensuring that we do have compliance in the field. We still have 
some work to do, certainly, but we do have many mechanisms in 
place, and if I can outline those for you very quickly.
    First of all, we have a self-inspection program, and 
basically that requires that every port of entry, all 326, 
every year look at a wide variety of the various 
responsibilities that they have and the policies and procedures 
that are in place at their ports of entry. It requires them to 
respond to a series of work sheets. In those responses, they 
have to note where there is any kind of deviation from the 
existing policy or procedure. They have to propose some kind of 
corrective action that is going to be taken. And all of that 
information from those 326 ports is then filtered up to the 
headquarters level where we consolidate them, we look at the 
issues that exist across the board, or in particular areas; and 
then from the headquarters level we update our directives, we 
send out new directives to try to bring policy and procedure in 
line on a national basis.
    Our Management Inspection Division also conducts field 
reviews. Typically, these are at the request of headquarters 
management to take a look at a particular aspect of what we do 
at the ports of entry. We have recently asked them to take a 
look at our ability to interdict fraudulent documents and our 
processing of those documents that we seize, as just an 
example.
    We also place in all of our directives basically layers of 
responsibility for implementation of those directives----
    Senator Warner. Let me just interrupt you.
    Mr. Morris. Certainly.
    Senator Warner. Clearly, you have got a lot going on, but 
Senator Akaka and I--and I see Senator Levin--we all three have 
served many years on the Armed Services Committee. And when the 
people down on the front in the actual combat situations--and I 
am not likening it to combat, but it is an extremely important 
part of how our overall security functions. For example, this 
says ``to ensure that field office managers share their 
assessment with the headquarters.''
    We have always put into the military situation provisions 
by which that type of information can very quickly, on a real-
time basis, get to the headquarters and receive their 
attention. Somehow your description, I am left with the 
impression that an awful lot of bureaucracy is there to go 
through to get an idea from the front lines of your service 
right up to the top people.
    Can you look at a way to try and expedite that?
    Mr. Morris. Certainly, Senator, and we do agree with GAO's 
recommendation in this area. We do agree that we need to 
provide for a better flow of information from the field to 
headquarters, and we are in the process of developing that.
    Senator Warner. Did you have any amplification, Mr. Stana, 
on that provision?
    Mr. Stana. No. I think the steps that they outlined in 
their July 2007 plan seem to be reasonable, not only to bring 
that kind of information up to the top quickly, as you point 
out, but they are also going to do some Red Teaming. And if 
that is done well----
    Senator Warner. That is excellent. Now, explain what ``Red 
Teaming'' is. That is well known in the military, but it is not 
so well known in other areas.
    Mr. Stana. Red Teaming is the idea where you get some of 
your own staff to secretly test the controls. You might send 
some people from Washington out to try to get through a port of 
entry to see if the inspection is successful or if the 
inspection has failed. And they have a program plan to do just 
that, and I think the results of that, in conjunction with 
getting information up from the bottom quickly, would go a long 
way toward addressing the problem.
    Senator Warner. I could not have provided a better answer 
to the question than that. We use it a great deal.
    I thank the Chairman and colleagues. Good luck to you.
    Senator Akaka. Thank you very much, Senator Warner.
    Mr. Morris, as you know, I am a strong proponent of 
improving training opportunities for Federal employees. 
Training can be a key to improving government efficiency by 
maximizing employees' contributions, and it can help morale, as 
was mentioned by Mr. Stana.
    I am concerned that CBP is providing too little training 
and that the training that CBP officers receive does not 
provide them with the concrete skills and knowledge that they 
need. Particularly, I am concerned that they do not receive 
enough cross-training to master all of the functions that were 
folded into CBP with the creation of the Department of Homeland 
Security.
    Mr. Morris, how is CBP tracking and evaluating CBP officer 
training at the many different ports of entry to ensure that 
CBP officers receive sufficient and high-quality training?
    Mr. Morris. Senator, first let me explain that all of our 
officers before they are placed in a port of entry do go 
through 16 weeks of intensive training at the Federal Law 
Enforcement Training Center in Glynco, Georgia. Upon their 
arrival in the port of entry, we do have a post-academy 
training that is established for them. We do recognize that we 
need to make some modifications in that post-academy training, 
and that is primarily because the original training package 
that we had put together, which consisted of 37 different 
modules, was constructed in order to provide that cross-
training that you talk about to bring customs inspectors, 
immigration inspectors, and agriculture inspectors under a 
single management chain of command and to provide them with all 
the basic information they need for this very broad mission 
that we have, counterterrorism plus all of these legacy 
missions.
    We recognize that 4 years after the transition to DHS and 
the formation of Customs and Border Protection, we need to move 
beyond that cross-training. We now need to have function-
specific training. So, for instance, if an officer arrives at a 
port of entry and they are going to be assigned to a cargo 
environment, we want to provide them with as-needed, just-in-
time training on the cargo environment. If later they move on 
to a new position working passport secondary, we want to 
provide them with that training package. What we do not want to 
try to do is force those 37 training modules on every officer 
upon their actual arrival in the port of entry.
    It simply is something that we cannot do because of the 
magnitude of our mission, the very diverse issues that we have 
to deal with on a day-to-day basis. So we really need to focus 
it on what the need is for the particular officers.
    Do we have a mechanism that can establish exactly what 
training is necessary for each particular officer? We are 
working on refining that. We could not come up with a report 
that would state whether or not any given officer was trained 
in all of the programs that were necessary for perhaps primary 
inspection. But we do track the training that is delivered to 
every officer. I can tell you officer by officer what they have 
been provided with, but we need to take that next step and tie 
the training to the function that they are now performing so 
that we can better assess whether or not they are prepared for 
the job that they are currently doing.
    Senator Akaka. Mr. Morris, the GAO report states that CBP 
officers are receiving as little as 2 weeks of on-the-job 
training. You just mentioned that while they are in a job, they 
do attend some of these modules that are prepared for them. But 
I am concerned that officers are being placed in these 
situations without the proper training, and this can be 
dangerous for the officers and increases the risk of failed 
inspections.
    Is there someone in charge of CBP officer training agency-
wide? Someone needs to be accountable, and Senator Voinovich 
did mention the CMO that we have been talking about. Is there a 
CBP Office of Training agency-wide? Who is in charge of 
training?
    Mr. Morris. CBP does have an Office of Training and 
Development. They are responsible for the oversight of the CBP 
Officer Academy in Glynco, Georgia. They work with the Office 
of Field Operations, which is the office directly over the 
ports of entry, to ensure that there is post-academy that is 
provided to our officers also.
    And if I could just clarify one statement, Senator, and 
that is that I think the 2 weeks that was mentioned was 
somewhat anecdotal. At various stages of post-academy training, 
an officer could have only received 2 weeks of training and 
would not feel prepared for the full gamut of jobs that they 
have to perform.
    We do track the post-academy training. We have training 
officers in the field that are supposed to ensure that our 
officers go from beginning to completion on post-academy 
training. But there will be times when we have to delay 
training because we do not have the luxury of closing down a 
port of entry or in some cases even closing a couple of lanes 
at a port of entry in order to accommodate training.
    Trade, travel, facilitation of legitimate travelers into 
the United States must continue, regardless of the 
administrative functions that we have otherwise.
    Senator Akaka. Mr. Stana, I would like to hear your 
thoughts on CBP officer training as well, particularly whether 
CBP is ensuring that officers receive the right training and 
whether the effectiveness of the training is evaluated.
    Mr. Stana. Well, the point is correct that oftentimes port 
directors have to make a decision on whether to have somebody 
go to training or to stay and staff a post. But at none of the 
locations we went to--none--was all 12 weeks of on-the-job 
training delivered. None. It was as little as 2 weeks, as you 
pointed out. Sometimes the average was 6 to 10 weeks, but none 
was 12 weeks.
    We also point out that in tracking the training and making 
sure that the training is useful, the Border Patrol would be a 
useful place for CBP to seek advice. The Border Patrol has 30 
specific functions that they have laid out for the Border 
Patrol agents, and they test against each one of those 30 
following training to make sure that the Border Patrol agents 
learned what they were supposed to learn. They test for 
proficiency. And I think that would be a good thing for the CBP 
officers to do when training courses are completed.
    I do not know if I could be as strong as to say that is 
best practice governmentwide, but it would certainly go a long 
way to picking up some of the training shortfalls.
    The last point I would make is that until you deal with the 
staffing question, the training issue is always going to be 
looming out there. Some of these ports are 30 to 40 percent 
understaffed, and until you deal with that, CBP officers are 
really not going to have time to get away and be trained 
properly so that they know how to do your job at the post they 
are assigned.
    Senator Akaka. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman, and let me join you 
in welcoming our witnesses.
    I was somewhat confused by some of the statistics that was 
given here in the GAO report. On page 5, there is an estimate 
that CBP officers turned away 200,000 aliens who attempted to 
enter the country illegally. Then it says a little later, on 
that page, that ``CBP estimates about 21,000 inadmissible 
aliens''----
    Mr. Stana. Sir, you might be reading from a classified 
version of the report.
    Senator Levin. It is not classified. It says ``Official Use 
Only.''
    Mr. Stana. OK. We consider that as classified, but go 
ahead.
    Senator Levin. This is classified? What am I doing with it 
in a public place without----
    Mr. Morris. ``Official Use Only'' generally simply means it 
is not for dissemination to the public.
    Senator Levin. Does that mean it is classified?
    Mr. Morris. Yes, sir.
    Mr. Stana. They only have administrative classifications at 
Homeland Security, and there are only a couple that they deal 
with. One is OUO. The other might be----
    Senator Levin. Well, I will tell you, you better tell staff 
to keep this in a safe and not let me walk around with it and 
take it home if these are classified figures. As Chairman of 
the Armed Services Committee, when we say something is 
classified, I cannot even have it here.
    Is that what the meaning of ``Official Use Only'' is? 
Somebody is shaking his head behind you there.
    Mr. Morris. I am not a classification expert myself, 
Senator, but as I say, it basically means it is for government 
use only, not for public dissemination.
    Mr. Stana. We do not classify or unclassify at GAO. We take 
the classification that is given to us at the Department, and 
the Department told us that when it is ``Official Use Only,'' 
we are not to disseminate it to the general public. It can be 
talked about in a closed session or among government people 
with a need to know.
    Senator Levin. All right. Well, let me ask you this in an--
let me put it to you this way: Take a look at the numbers. Do 
you have the thing with you?
    Mr. Stana. I know the numbers.
    Senator Levin. There seems to be a major discrepancy 
between the numbers, OK? In terms of the percent--I will not go 
into what the percent is--that were caught, that percent, and 
then you have a total--and when you look at the numbers, they 
are totally different than the percentages.
    Mr. Stana. Yes, and that gets to the issue of the 
estimating program that the Department uses to identify how 
many inadmissible travelers--well, actually, more accurately--
and Mr. Morris pointed this out--it estimates how many people 
are caught with serious contraband. It might be drugs, it might 
be weapons, but that is the number there. What that number does 
not say is who brought the drugs or the weapons in. It could be 
an inadmissible alien. It could be a citizen who is a violator 
and should not be bringing stuff into the country.
    Senator Levin. How do they know how many people got in who 
are inadmissible? How do they arrive at that statistic?
    Mr. Morris. Senator, again, we have not yet arrived at that 
statistic. The statistic that was provided was specific to 
customs violators. However, effective October 1 of this year, 
we have modified that same system so that we will now collect 
information on inadmissibles and agriculture violators as well.
    Senator Levin. Without getting into the numbers, it says 
here in fiscal year 2006, CBP estimates that it caught about 
[blank] percent of these travelers who attempted to enter 
illegally by vehicle and [blank] percent at major land ports of 
entry, 44 percent who attempted to enter illegally through 
major airports.
    It says CBP estimates that about [blank] inadmissible 
aliens and other violators entered the country. How, in 2006, 
were you able to estimate the number of inadmissible aliens and 
other violators who entered the country? How do you know that?
    Mr. Morris. The fact is that we do not at this point know 
that.
    Senator Levin. But then where did that number come from 
that I was not supposed to divulge publicly?
    Mr. Stana. Well, I can tell you where the number came from 
because it is in our report. This program randomly selects 
260,000 land crossers and 240,000 air crossers into the country 
for further inspection. If the inspector at the booth or at the 
desk at an airport decides that the person is eligible to enter 
the country, those individuals may be tagged through a random 
selection process to go into the secondary area where a more 
detailed inspection is done.
    Senator Levin. If they are eligible.
    Mr. Stana. If they are selected by the random----
    Senator Levin. No, but I do not mean that. If they are 
eligible to enter the country.
    Mr. Stana. Yes. The inspector at the booth did not find 
anything that was wrong, and they would have admitted them 
except for this random selection for further inspection.
    Upon further inspection, what the statistics show is they 
often find--or at times find drugs, contraband; they might find 
other things that are Class II violations. It might be phony 
documents. It might be something like that. And that is where 
those figures came from. X percent of the time they are saying 
that upon referral to secondary they are successful in finding 
these kinds of people at the airport; at Y percent of the time 
they are successful in finding these kinds of people at land 
ports.
    Now, the key here is the people entering the ports may be 
an alien or they may be a citizen, and that is the figure that 
they are trying to refine in the next iteration that they are 
just starting this fiscal year. But some of those people are 
inadmissible aliens, and some of those people are other 
violators, which is the language we used. And if it is 
confusing, we apologize.
    Senator Levin. My time is up. Thank you.
    Senator Akaka. Thank you very much.
    Mr. Stana and Mr. Morris, we are going to go into a second 
round here. I would like to hear both of your thoughts on this 
question. As legacy customs, immigration, and agriculture 
inspectors retire, CBP is losing their specialized knowledge 
and skills. I am concerned that newer officers are not being 
trained adequately to replace that specialization.
    Is CBP losing expertise as legacy officers leave the 
agency? Mr. Morris.
    Mr. Morris. Well, certainly any drain of qualified, very 
experienced officers concerns us. But I believe that the 
current training and recruitment that we are going through will 
replace those officers with officers of the same level of 
expertise as the years go by for them as well.
    As we grow into an agency with very vast responsibilities 
at the ports of entry and as our officers learn to enforce the 
laws that regulate various customs issues and immigration and 
agricultural as well as all of the other Federal laws that we 
handle at the ports of entry, they will gain that expertise. 
They will naturally fall into areas where they want to provide 
some emphasis or want to specialize.
    In addition, we do have advanced training that we provide 
to officers that tend to go down these roads. We have some 
advanced secondary training that we provide to officers that 
will be working in passport control secondary so that they can 
better process individuals for asylum, for fraudulent 
documents, for expedited removal, and the other tools that we 
have there.
    We have counterterrorism response training that we provide 
to our counterterrorism response teams. We also have training 
that teaches them how to detect deception and elicit response 
from individuals.
    We have training that we provide as far as just basic 
admissibility so that the officers working passport primary can 
focus on the issues that are presented to them with each 
individual that arrives there at the port of entry.
    So, yes, it will be a shame to lose some of these officers 
that have that historical knowledge, but the laws change 
frequently, we continually have to update our knowledge base 
and continually update our training. And our CBP officers, I 
believe, are very well qualified to carry out the job.
    Senator Akaka. Thank you.
    Mr. Stana. Mr. Akaka, you hit on a major pain point at the 
ports of entry. What is working with ``One Face at the 
Border''? Well, what is working is that the individual at the 
primary area, at the first booth, has a wider range of 
knowledge on agricultural issues, immigration issues, customs 
issues, and can decide at that higher level whether the 
individual in front of them merits further inspection.
    What else is working with ``One Face at the Border'' is you 
do not have a confusing dual management system at the ports 
where you have people with one uniform sitting on one side of 
the room and another uniform sitting on another side of the 
room making decisions that could essentially be made by one 
service. So that is where it has improved.
    What is not working so well yet, and particularly in the 
immigration area, is that many of the officers who were trained 
under ``One Face at the Border'' have not received the detailed 
training, or at least have not comprehended the detailed 
immigration knowledge needed to make some of these very 
detailed and intricate decisions regarding things like 
expedited removal, humanitarian paroles, asylum, the whole 
gamut of immigration law. It is much more complicated than you 
might think. And the port officers that we spoke with at the 
eight locations we visited told us that, as the people either 
leave or retire--there is a hole in the organization that is 
left behind. And whatever can be done to regain that 
specialization, in the secondary area primarily, would be very 
welcome by those port directors.
    Senator Akaka. Yes. Senator Voinovich alluded to that, too, 
about the retirees. And I hope you will really look at that, 
and I would like to think of what we call emeritus types who 
can come back and give the kind of information that you do not 
read about in books. And so I think that is something that we 
really need to look at.
    Mr. Morris, I am deeply troubled by the poor morale--and 
this was mentioned by Mr. Stana--of CBP officers. CBP fared 
poorly on the most recent Office of Personnel Management 
Federal Human Capital Survey. These results are disturbing as 
poor morale and high attrition make it even more difficult to 
address CBP's staffing shortfall.
    What steps are you taking to improve CBP officer morale?
    Mr. Morris. Officer morale is a difficult area to address, 
and we recognize that it is really a combination of many things 
that can affect that. It is in many cases simply the nature of 
the job, the very difficult circumstances that we place the 
officers in on a day-to-day basis--for instance, on the 
Southwest border during the summer and on the Northern border 
during the wintertime. And beyond that, the infrastructure is 
not there to really support effective and efficient inspections 
as well. And when we do not provide our officers with that 
infrastructure, with a facility that is conducive to conducting 
an effective inspection, it makes their job that much more 
difficult.
    And as we continue to have some difficulties in recruiting 
and retaining staff, we continue to have to go to overtime as a 
tool in order to make up for the difference. That working of 
overtime affects the quality of life for many of these 
individuals, and I think the workforce of today is different 
than it was 20 or 30 years ago when they wanted the overtime, 
they wanted the long hours for the extra pay. But there does 
seem to be a shift in their focus perhaps.
    As far as how we are addressing it, as I said before, we 
would like to become the premier law enforcement agency with 
respect to border security in the world. And we have a 
professionalism program trying to instill some of that pride 
and just self-worth in our officers about what they are doing. 
I do not know that the GAO report went into this at all, but my 
personal feeling is that our officers are very proud of what 
they do. They think they have a very significant role in 
protecting this Nation, and we need them desperately at those 
ports of entry on a day-to-day basis conducting those thorough 
inspections. But as you pointed out so very aptly in your 
statement, Senator, it is a vicious circle in many cases.
    Senator Akaka. Mr. Stana, what are your thoughts on 
improving officer morale?
    Mr. Stana. Well, look, there are no easy answers here. I 
think some of the answers are in the data. People enjoy what 
they are doing. They understand the significance and the 
importance to national security and immigration management. On 
the other hand, they are not satisfied totally with pay. They 
are not satisfied with working conditions.
    Mr. Morris and others have talked about trying to address 
the law enforcement retirement and law enforcement pay. Some of 
the officers' answers suggested implementing, a pay for 
performance (PFP), but we did not get into that.
    But one of the messages that the officers left with us is 
that they would like more of a say in how things are run, and 
this gets--I do not know if you call it ``total quality 
management'' or--it is the kind of management that we have seen 
the auto companies pick up on and use to good effect. And I do 
not know to what extent--you might ask the second panel--to 
what extent the agency is partnered with the union to try to 
get more of a voice from the bottom on what could be improved, 
what is not working well. Sometimes it could be something as 
simple as, well, you need to put the bollards over there, or we 
need equipment in the booth for inspections that is configured 
this way, not that way.
    But the more people feel they have a role and a say in 
their work, the better off I think we all would be.
    Senator Akaka. Thank you very much. Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    Unfortunately, Environment and Public Works is working on 
the climate change legislation, and I am going to have to 
excuse myself from this hearing, and I regret that I am not 
going to have an opportunity to hear Colleen Kelley's 
testimony.
    Mr. Stana, you did bring up a subject that I would be very 
interested to hear Ms. Kelley's comments about, and that is the 
issue of empowering the people that are there to come back with 
recommendations on how they think they could possibly get the 
job done. One thing that I have been very supportive of is 
total quality management, that is going to the people who do 
the jobs and empowering them to come back with their best 
recommendations on how to get the job done.
    It is frustrating here that only under the guise of 
outsourcing the government develops the most efficient 
organizations. I would like to see MEOs without competition 
established throughout the Federal Government so the people 
that are there could come back and identify better ways to do 
their job. For example, in some areas we have tiger teams that 
come together, and they have a problem, they sit down, they 
spend 6 months on it, talk to their customers, come back, and 
they do a pretty good job.
    So I am interested in knowing Mr. Morris, how much 
involvement have you--how often have you engaged the union and 
your people to come back and say how do they think things can 
be better done in their respective responsibilities?
    Mr. Morris. Well, when new initiatives are surfacing and we 
have to make operational changes at the ports of entry, we do 
bring in the union and advise them on those changes, seek their 
feedback. In some cases, when we are rolling out new programs 
to the field--and this depends largely on the nature of the 
initiative, but we will have roundtables that include the 
supervisors and managers there at the ports of entry to get 
their feedback on how this should be implemented. We will 
typically have training teams on-site to ensure that the 
implementation goes well.
    Senator Voinovich. Mr. Morris, unfortunately, I am going to 
have to excuse myself.
    Ms. Kelley, I want you to know that I am going to read your 
testimony and also get your oral testimony today.
    I would suggest, Mr. Chairman, that after we have heard 
from Ms. Kelley, maybe we ought to ask Mr. Morris, or whoever 
else, to sit down and have them come back with a recommendation 
on how possibly we could correct the situation, assuming that 
the union feels that they could do a lot better if they had 
more input into the recommendations on how to make you a 
better, more efficient organization. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Voinovich. 
Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Your report indicates a significant number of fraudulent 
documents. I will not go into the number.
    Mr. Stana. That is unclassified, sir. [Laughter.]
    Senator Levin. OK. How many were there?
    Mr. Stana. Forty thousand--well, I am sure that is rounded.
    Senator Levin. I do not think you ought to use the word 
``classified.''
    Mr. Stana. Let us just say ``sensitive.''
    Senator Levin. Because these are not classified documents. 
I mean, we have a legal opinion on this question. This is very 
different from classified documents. I would use some other 
terms.
    In any event, 40,000 fraudulent documents. What do you do 
with those? Do you hold the person who offers the fraudulent--
not you. Let me ask Mr. Morris. Do you hold the people who 
offer the fraudulent documents and investigate the source of 
those documents? Is that the ordinary practice?
    Mr. Morris. It can really follow a number of different 
avenues. Typically, an individual that is presenting a 
fraudulent document is either going to be an alien attempting 
to unlawfully immigrate to the United States, or it could be a 
United States citizen as well, trying to obscure their identity 
because they have an outstanding warrant or something like 
that.
    After we determine their citizenship and the nature of the 
violation, that would determine what we do with that 
individual, whether we present them for prosecution before the 
U.S. Attorney's Office or if we process them administratively.
    For most aliens, we typically remove them expeditiously. 
That is one of the authorities that we have under the 
Immigration and Nationality Act, whereby essentially we quickly 
formally remove them at the port-of-entry level, we put them on 
the next flight out of the United States, or we put them back 
across the border. The actual document is sent to our 
Fraudulent Document Analysis Unit, where all of those documents 
from throughout the United States are collected. We gather the 
data. We seek trends in the presentation of these documents. 
And we try to pursue those document vendors that are making 
those documents available for the individuals presenting.
    Senator Levin. What percentage of the 40,000 fraudulent 
documents in a year, I guess, would you say that you held the 
individual for investigation rather than summarily removing the 
individual? Most of them or less than most?
    Mr. Morris. Well, the vast majority of fraudulent documents 
that we receive are actually valid documents presented by other 
than the true bearer, and in those cases an individual is 
simply using someone else's card or passport to attempt entry 
into the United States.
    Senator Levin. Is the person held in most cases or removed 
in most cases?
    Mr. Morris. If an alien, typically they would simply be 
removed. Unless we can draw some nexus to a criminal 
organization or something else that would warrant their 
detention so that we could use them as a material witness, 
something along those lines, typically they would be removed.
    Senator Levin. But what about investigating the source of 
the illegal document? If they are just summarily removed, you 
lose that opportunity, don't you?
    Mr. Morris. Well, to a certain extent. I mean, we do 
collect a sworn statement from each of these individuals as 
they are being processed for return. We do attempt to identify 
the source of the documents. But typically these are 
organizations that are operating outside of the United States. 
Investigation is difficult unless we can use our assets such as 
Immigration and Customs and Enforcement in a foreign country to 
cooperate----
    Senator Levin. No, I am talking about getting information 
from the alien as to where they got the document.
    Mr. Morris. That would be done during the sworn statement 
portion of processing.
    Senator Levin. Would you say in most cases they willingly 
give you the source or not?
    Mr. Morris. In most cases, not.
    Senator Levin. Not, and so you still let them go. Even 
though they attempted to enter the United States with an 
illegal document, they are just removed on the ground that if 
you held them you would not be likely to get more information 
about the source of the document?
    Mr. Morris. Correct. There is typically not more that we 
are going to be able to glean from those individuals.
    Senator Levin. Even if you hold them.
    Mr. Morris. Correct.
    Senator Levin. Even if you detained them.
    Mr. Morris. Correct.
    Senator Levin. And you have tested that?
    Mr. Morris. I personally have not tested it, no, Senator. 
But I can tell you that the types of organizations----
    Senator Levin. Obviously, you have not done it personally. 
When I say ``you,'' I am talking about your agency. Has your 
agency tested that theory that if you hold people who offer 
fraudulent documents that you are not going to be able to get 
the source if you detain the people? Let us know for the 
record, would you, if you do not know the answer?
    Mr. Morris. Yes, sir. My apology for my previous comment, 
Senator.
    Senator Levin. That is OK.
    Mr. Morris. No, we have not tested it, but our experience 
has shown that the types of organizations that are providing 
these documents are difficult to track, they are difficult to 
identify. In many cases, they are actually a rental agency that 
is providing these documents through a vendor standing near the 
port of entry that provides one that looks like the individual, 
and that card is then collected at the other side.
    Senator Levin. Do you know whether the agency has tested 
the detention approach for people who try to enter the country 
fraudulently to see if they can't, by holding someone a few 
days, determine the source of that document? Have you tested 
that approach?
    Mr. Morris. And we have not tested that, Senator.
    Senator Levin. I think it would be useful to at least 
consider testing the approach. I mean, we are flooded with 
illegal, fraudulent documents. It might be useful to tell the 
person, well, we are going to try to talk to you and see if 
you--give you a lie detector test, whatever it is. I mean, it 
is a crime, isn't it, to enter the country with a fraudulent 
document?
    Mr. Morris. It is, Senator. It typically does not rise to 
the level where we will be able to obtain prosecution. And it 
is important to note that----
    Senator Levin. I am not talking about prosecution. I am 
talking about trying to figure out the source.
    Mr. Morris. I understand, but----
    Senator Levin. And I know it is overseas, but it is useful. 
Some countries actually have police forces that work with us. I 
just would ask you to take back to the head of the agency this 
question: What about trying to go after sources of fraudulent 
documents by detaining the people who use them here in a 
legitimate effort to investigate to try to find out from that 
person what the source of that document is? And if that is not 
being used, why not? I mean, every other crime that is 
committed in this country, presumably, if someone is offering 
fraudulent documents to the police department or the IRS or to 
the Treasury Department or the FBI, there is an investigation. 
We have an immigration problem here, illegal immigration. We 
are flooded with fraudulent documents. Why not hold these folks 
for at least a reasonable period of time in an effort to find 
out the source of the documents? And if you are not going to 
use that approach and are not willing to test it, could you at 
least--not you. Could the agency at least let this Subcommittee 
know why not? Could you do that?
    Mr. Morris. I would be happy to do that, Senator.
    Senator Levin. One last question, if I could, Mr. Chairman, 
and I know I am over my time. On the reverse inspection 
question, we have been proposing that in order to speed up the 
flow of commercial material across our borders, both 
directions, that there be reverse inspections so that the 
inspections take place in, for instance, Canada--where I live, 
it would be across from Detroit. What is the status of that 
effort?
    Mr. Morris. We continue to have discussions with the 
Canadian Government. There are some significant issues and 
concerns that must be addressed, for instance, operating on 
Canadian soil and what the authority of our CBP officers would 
be.
    Senator Levin. But that has been true for years, hasn't it?
    Mr. Morris. It has. It continues to be.
    Senator Levin. Is there any hope it is going to be 
resolved?
    Mr. Morris. It is a difficult subject to really overcome 
the issues and challenges there, Senator.
    Senator Levin. Can you tell us just for the record, if you 
would, when the last efforts have been made to negotiate this 
with the Canadians? Just for the record. Not now. I am over my 
time. Could you let us know?
    Mr. Morris. Certainly, sir.
    Senator Levin. Thanks. Thank you both.
    Senator Akaka. Thank you. Thank you very much, Senator 
Levin.
    Mr. Morris, most land border crossings were built at a time 
when there was a lower volume of travel and less recognition of 
the need for security. According to CBP estimates, the land 
ports of entry need almost $4 billion in upgrades. This does 
not include the additional billions that it would take to 
improve infrastructure near ports of entry, such as widening 
bridges or highways that form choke points before land border 
crossings. It would take billions more to put the 
infrastructure in place to allow for exit screening through US-
VISIT at land ports.
    You testified that CBP infrastructure must compete with 
other GSA building projects. What can be done to better 
recognize, evaluate, and prioritize the pressing need for 
infrastructure improvements at ports of entry?
    Mr. Morris. Mr. Chairman, CBP and GSA recognize the, I 
would say, urgent need for new infrastructure at ports of entry 
to carry out our mission, and we have partnered with GSA to try 
to reduce the costs associated with the design and construction 
of our ports and try to reduce the amount of time that is 
necessary in order to complete our ports of entry.
    As far as the prioritization of how funding is spent, I 
think we are going to simply need to continue to focus on 
making sure that our needs are heard and that they are given 
the proper priority. However, very often we do compete with 
other Federal buildings, such as courthouses, which very often 
carry much more weight in getting the construction completed.
    Senator Akaka. Mr. Stana, I would like to hear your view on 
this issue as well. GAO's report indicates that weaknesses in 
physical infrastructure at ports of entry can result in failed 
traveler inspections. What are some of the more troubling 
problems you observed in the infrastructure of land border 
crossings?
    Mr. Stana. Well, first let me say that the fact that almost 
60 percent of our ports are actually owned by GSA magnifies the 
kinds of issues that Mr. Morris talked about. There are only 
about a third that are owned by CBP, so they are somewhat 
confined and restricted on what they can do on their own. And 
then another 14 percent, I believe, are owned by private 
individuals--or private corporations, like the Detroit-Windsor 
Tunnel and the Ambassador Bridge in Mr. Levin's area. And this 
creates problems when you want things to be done. You have to 
get approvals and you have to get in their priority system as 
well.
    The kinds of problems that we saw include lanes that are 
not secured, making it easier to run through a port without 
going into the secondary area if you are instructed to do so; 
making sure that all of the technology is in the right place. 
Now there are license plate readers there, and they have portal 
monitors for radiation detection and so on.
    This gets to a larger issue, I think, that you raised in 
your opening statement, Mr. Akaka, and that is, is it really 
time for a 21st Century port configuration? If you go to a port 
of entry, what you have now is akin to buying an old car from 
the 1960s and putting GPS on it and retrofitting power windows 
and satellite radio and all that kind of stuff, when a new car 
incorporates that and it is much more easy to use and it works 
better.
    If we are going to spend $4 billion upgrading the ports, we 
ought to make sure that we consider all of the things that are 
going to make the job easier. Is the computer screen in the 
right location in the booth to make it easy to query the text 
databases, the law enforcement databases? Are the license plate 
readers in a position that gives the officer enough advance 
warning that a person requires further inspection--should the 
portal monitors be placed several hundred yards away? Why would 
you put them right at the port where an explosive devise could 
have a severe consequence?
    So maybe it is time for CBP, along with engineers and local 
governments where these ports are located, perhaps the union, 
to get together and consider how these ports ought to be 
configured to take us into the next era where we have to 
consider security and terrorism much more than we had to when 
these ports were designed, and yet still allowing the 
relatively free flow of people and legitimate cargo.
    Senator Akaka. Thank you for that forward look.
    Mr. Morris, CBP is under tremendous strain to complete its 
visitor/traveler inspection and antiterrorism functions. I am 
concerned that agricultural inspection is being sacrificed due 
to CBP's staffing shortage. How are you ensuring that there is 
enough focus on agricultural inspection?
    Mr. Morris. The CBP agriculture specialists play a very 
important role at our ports of entry, and they are fully a part 
of the rest of Customs and Border Protection operation at a 
port.
    In our training for our officers at the CBP Officer 
Academy, they get the cross-training in the agriculture 
mission, and they are made aware of the great importance of 
performing that mission at the ports of entry to protect the 
economic interests and the agricultural interests of this 
country.
    In order to ensure that the agricultural mission is 
thoroughly addressed at the ports of entry, we frequently put 
out musters for our officers, so, in other words, we are 
providing them with a briefing at the beginning of their shift 
that tells them to look for specific pests or specific items 
that are prohibited from entry. And we make sure that within 
each of the ports of entry our management oversees that joining 
of the two workforces.
    And I should say that I believe that our agricultural 
enforcement is much better now than it was previously, and it 
is better now because each CBP officer on primary inspection is 
a workforce multiplier for those ag specialists. They have the 
basic information that they need to identify when there may be 
an issue with an agricultural product, and they refer it to 
secondary, where the ag specialist then focuses on it.
    So I think we have really improved this transition.
    Senator Akaka. Mr. Morris, in March 2003, CBP initiated its 
``One Face at the Border'' program that unified and integrated 
legacy inspectors from three agencies into two new positions: 
CBP officer and CBP agriculture specialist. CBP envisioned the 
results would be more effective traveler inspections and 
enhanced security at ports of entry.
    What is your assessment of the ``One Face at the Border'' 
program? And what are the lessons learned from the effort?
    Mr. Morris. Well, I believe as many have pointed out, any 
transition of this magnitude takes a long time. I have heard 
estimates anywhere between 5 and 10 years before a transition 
such as this is complete. But all that said, I believe that we 
have made outstanding progress in heading towards that one face 
at the border and a truly unified workforce with common 
missions and a common primary mission being counterterrorism.
    We have seen the better interdiction and identification and 
apprehension of individuals with links to terrorism. We have 
seen a better sharing of information from the top to the bottom 
as far as intelligence information that is useful to our 
officers in the field. And we have overall continued to grow in 
the apprehension of individuals that are bringing in any number 
of prohibited goods, as well as continuing to apprehend those 
that are attempting to unlawfully immigrate to the United 
States.
    Yes, we still have work to do, but I think we have made an 
outstanding first 4 years at it.
    Senator Akaka. Well, I want to thank both of you very much 
for your testimony as well as your responses to the 
Subcommittee. It will be helpful, and as you pointed out, we 
have much to do, both as Administration people and people of 
Congress. And so I want to thank you again for all you have 
done and will be doing for our country.
    Mr. Stana. Thank you, Mr. Chairman.
    Mr. Morris. Thank you, Chairman.
    Senator Akaka. Thank you. Now may I call forward Colleen 
Kelley, National President of the National Treasury Employees 
Union. Welcome, Ms. Kelley. It is the custom of the 
Subcommittee to swear in all witnesses. Please stand and raise 
your right hand. Do you swear that the testimony you are about 
to give the Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Kelley. I do.
    Senator Akaka. Thank you very much.
    Let it be noted in the record that the witness answered in 
the affirmative.
    As with the previous panel, I want you to know that while 
your oral statement is limited to 5 minutes, your entire 
written statement will be included in the record. Will you 
please proceed with your statement, Ms. Kelley?

 TESTIMONY OF COLLEEN KELLEY,\1\ NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you very much, Chairman Akaka. I 
appreciate the opportunity to testify on the human capital 
challenges posed by the U.S. Customs and Border Protection's 
``One Face at the Border'' Initiative. NTEU represents Customs 
and Border Protection officers, agriculture specialists, and 
trade enforcement employees at the Homeland Security 
Department.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kelley appears in the Appendix on 
page 64.
---------------------------------------------------------------------------
    Shortly after DHS was created, CBP announced the ``One Face 
at the Border'' initiative that, as we have heard, combined 
three different inspector occupations: Customs, immigration, 
and agriculture. This major consolidation of the roles and 
responsibilities of the inspectional workforce of the ports of 
entry has resulted in a huge expansion of the duties of each 
officer, and it has led to the dilution of the customs, 
immigration, and agriculture inspection specializations, 
weakening the quality of inspections.
    CBP saw its ``One Face at the Border'' initiative as a 
means to increase management flexibility without increasing 
staffing levels. Their position was ``there will be no extra 
cost to taxpayers. CBP plans to manage this initiative within 
existing resources. The ability to combine these three 
inspectional disciplines and to cross-train front-line 
employees will allow CBP to more easily handle projected 
workload increases and stay within present budgeted levels.''
    This has not been the case. The knowledge and the skills 
required to perform the expanded inspectional tasks under the 
``One Face at the Border'' initiative have dramatically 
increased the workload of the CBP officer. CBP officers have 
twin goals: Antiterrorism and facilitating legitimate trade and 
travel.
    On the one hand, CBP officers are to fully perform their 
inspectional duties, yet at all times they are made aware by 
management of wait times. In land port booths, wait times are 
clearly displayed. At airports, all international arrivals are 
expected to be cleared within 45 minutes. CBP's emphasis on 
reducing wait times without increasing staff at the ports of 
entry creates an extremely challenging work environment for the 
CBP officer.
    GAO testified today that CBP's own staffing model shows 
that several thousand additional CBP officers and agriculture 
specialists are needed at our ports of entry. And GAO testimony 
issued on October 3, 2007, stated, ``As of mid-August 2007, CBP 
had 2,116 agriculture specialists on staff, compared with 3,154 
specialists needed, according to its own staffing model.''
    NTEU has called on Congress for an increase of at least 
4,000 new CBP officers and agriculture specialists for CBP to 
achieve its dual mission.
    Staffing shortages are exacerbated by challenges in 
retaining staff, as we have heard today. This contributes to an 
increasing number of CBP officer vacancies, which are currently 
estimated at 1,000 vacancies. According to GAO, ``CBP's onboard 
staffing level is below its budgeted level--the gap between the 
budgeted staffing level and the number of officers onboard is 
attributable in part to high attrition, with ports of entry 
losing officers faster than they can hire replacements. Through 
March 2007, CBP data shows that, on average, 52 CBP officers 
left the agency each 2-week pay period in fiscal year 2007. 
That is up from only 34 officers each 2-week pay period in 
fiscal year 2005.''
    The most significant impediment to recruitment and 
retention of CBP officers that Congress can address immediately 
is the lack of law enforcement officer status, which we heard 
about earlier. The newly issued GAO report states, ``CBP 
officers are leaving the agency to take positions at other DHS 
components and other Federal agencies to obtain law enforcement 
officer benefits not authorized to them at CBP.''
    For this reason, legislation has been introduced in both 
the House and Senate to provide CBP officers with law 
enforcement officer benefits. In addition, House appropriators 
have included in their fiscal year 2008 DHS appropriations bill 
a provision that would grant law enforcement officer status to 
CBP officers prospectively. NTEU is currently working with the 
House and the Senate to modify this provision so that some LEO 
retirement benefit is provided to all CBP officers. NTEU urges 
this Subcommittee to support our efforts to improve and to pass 
this legislation.
    I have to mention that in Mr. Morris' testimony on the 
prior panel, he testified that CBP is striving to be the 
premier law enforcement agency, and I agree with that goal. But 
I can tell you that will never happen without providing law 
enforcement officer status to these CBO officers.
    Widely reported morale problems at DHS also affect 
recruitment and retention, and we heard about that somewhat on 
the earlier panel. It also gets in the way of the ability of 
the agency to accomplish its mission. The proposed new DHS pay 
and personnel systems and CBP's unilateral elimination of 
employee input into routine workplace decisionmaking, such as 
work shift schedules, have had a serious negative impact on 
morale and also need to be addressed.
    I have to mention also that in response to Mr. Morris' 
answer to a question that you asked about morale at CBP and 
what they intended to do about it, it is very clear to me that 
CBP has no plan to address this. The first time the employees 
answered the survey and made clear that the employee morale was 
so low, 29 out of 30, the Department of Homeland Security was 
very dismissive of those results. They said to the press and to 
Congress and to everyone else that: ``It is a new department, 
we merged 22 agencies, of course, morale is low.'' They were 
very dismissive of employees' responses.
    The next year, when again employees had the same response, 
they decided that Secretary Chertoff should now convene some 
groups of executives and managers to talk about the issue. That 
is not how the problem will be solved. It will be solved by 
working with NTEU and with the front-line employees to identify 
the issues that are impacting this morale issue. And it is 
about staffing, about law enforcement officer status. It is 
about employee involvement in decisionmaking, and it is about 
valuing and respecting the front-line officers and the input 
that they have into how the work can be done better. None of 
that is done today.
    In conclusion, I would say that there are six 
recommendations NTEU has for CBP on their human capital 
challenges. One is to fill the vacancies and increase the CBP 
officer and agriculture specialists staffing to the levels in 
CBP's own staffing model.
    Second, end the ``One Face at the Border'' initiative.
    Third, re-establish the specialization of prior 
inspectional functions.
    Fourth, provide LEO coverage to all CBP officers with 
retroactive coverage.
    Five, repeal Homeland Security's personnel flexibility 
authority.
    And, six, allow employee input in a shift assignment 
system.
    And I would just like to add as part of my statement a 
response to Senator Voinovich's question about how much NTEU 
and employee involvement there is with CBP. As I signaled to 
Senator Voinovich when he asked the question, the answer is 
zero. There is zero involvement. And there is a reason for 
that. At least there was a triggering reason.
    When this Administration came into office, one of the first 
acts they did was to rescind an Executive order on partnership. 
An Executive order had been in place since 1993 that required 
Federal agencies to work in partnership with the unions who 
represent front-line Federal employees and those employees. 
Within 2 months of the President taking office, this 
Administration rescinded that Executive order, and as a result, 
every agency, including the U.S. Customs Service at the time 
and now Customs and Border Protection, does not work with NTEU 
or with employees in partnership in any way, shape, or form. 
The notice and the discussions with NTEU that Mr. Morris 
referenced I take issue with. He said when there are changes at 
the ports, they notify NTEU. That is a legal obligation because 
we are the exclusive representative and they have a collective 
bargaining obligation. They interpret that as narrowly as 
possible, give us notice when they see fit, give us the minimal 
facts that they can, and their intent always is to unilaterally 
move and to act on whatever their decisions are without NTEU's 
involvement or the involvement of the front-line employees.
    So to Senator Voinovich's question, there is no NTEU or 
employee involvement on shift assignments, on training, on port 
operations, on retention, on morale, on nothing. There is zero 
NTEU or employee input.
    With that, I am happy to answer any questions that you have 
for me today, Senator. Thank you.
    Senator Akaka. Thank you very much, Ms. Kelley.
    I was very troubled by the GAO report's finding that CBP 
officers receive as little as 2 weeks of on-the-job training. 
Are CBP officers being placed in situations that they are not 
prepared to handle?
    Ms. Kelley. Unfortunately, they are at times. They do the 
best they can. They take their jobs very seriously. They do 
have the formal training from the academy. But the front-line, 
on-the-job training at the port--actually getting to see the 
work done by an experienced officer, to have that 12 weeks, as 
was described earlier, provided to them is a critical piece of 
how well they will do the job. How fast they will be able to 
really understand all of the nuances and also see these 
experienced officers react, not only to textbook knowledge, but 
also to gut reactions that they have built and acquired over 
the years, are really a very key part to doing this job.
    Senator Akaka. Ms. Kelley, CBP officers routinely seize 
narcotics and arrest drug smugglers. They also need to be 
prepared to apprehend suspected terrorists. Given these job 
duties, are you concerned that insufficient training creates a 
safety hazard for the CBP officers that you represent?
    Ms. Kelley. I think it does at times create a safety risk, 
and also it does not allow these officers to do the first-class 
quality job that they are trying to do for our country. It does 
not give them the opportunity to do that. It does not give them 
the tools and the resources to be able to do it. And at times 
it does make the environment unsafe.
    Senator Akaka. You testified that combining the former 
customs inspectors, INS immigration inspectors, and USDA 
agriculture inspectors into generalist CBP officers has 
resulted in job responsibility overload and a dilution of 
specialization, weakening the inspection process. How could 
cross-training be improved to reduce the problems that you 
identified?
    Ms. Kelley. Cross-training is a piece of it from a 
standpoint of an awareness, I would say. But to think that 
these officers can be cross-trained to be experts in all three 
areas of law is misguided. Each one of them have their own sets 
of law, rule, and regulation--the customs law, rule, and 
regulation, the immigration law, rule, and regulation, as well 
as the agriculture law, rule, and regulation. So cross-training 
surely serves a purpose from an awareness standpoint to then 
get those travelers or that cargo into secondary where the 
experts, those who have the specialized skills, can then 
continue to do that inspection and that work. And so cross-
training is a piece of it, but it is not the sole answer.
    The specialization loss is a very real one, and it is one 
that needs to be addressed, and it needs to be addressed by 
staffing and a recognition that those secondary lanes need to 
be staffed so that when someone who has an awareness from the 
cross-training that they have received sends someone there, 
that there is staffing there to do an adequate inspection. Too 
many times today that is not the case.
    Senator Akaka. CBP officers at border crossings work long 
hours, breathing fumes from thousands of cars. Often they work 
while standing in high temperatures, particularly along the 
Southern border. To some degree, these are realities of the 
job.
    What can be done to improve border crossings to make them 
more secure, efficient, and comfortable work environments for 
CBP officers?
    Ms. Kelley. I think that there are 326 answers to that 
question since there are 326 ports of entry, because each one 
really is a different situation. They are all laid out 
differently, whether it is because of real estate or because of 
traffic. But each one is different, and that is why the input 
of the front-line officers who are doing this work is so key. 
They would have ideas about how to either redirect the traffic 
or insert fans or whatever equipment can be put into certain 
ports that would eliminate or at least reduce the fumes that 
they are subjected to. It may be that the staffing in those 
booths needs rotating more frequently on the Southwest border 
because of the fumes than it does in some of the inland borders 
with less traffic.
    So I really think there are 326 answers to that question, 
and the way to get the answer is not to have the port director 
and the manager sit down and discuss it. It is to work with 
NTEU and the front-line officers. They have a lot of really 
good ideas about how to do the work better, about how to do the 
work safer, and about how to make the ports of entry more 
effective for America's taxpayers.
    Senator Akaka. Speaking about morale and attrition, as you 
know, CBP officers do not receive the enhanced pension benefits 
that Federal law enforcement officers receive. What effect does 
this treatment have on CBP officers' morale and attrition?
    Ms. Kelley. It is a huge issue, Mr. Chairman. Everywhere I 
go, officers ask me what the chances are that this wrong will 
be made right and that they will be given the law enforcement 
officer status that they so deserve.
    It is a very big morale issue, and it is an issue that 
really feeds into the retention that CBP acknowledges. And I 
will say that I am glad to hear that CBP is acknowledging--
maybe because of the GAO report, but acknowledging they have a 
retention problem, because for years NTEU has been raising this 
with them, and they have never acknowledged that they had a 
problem that was different than any other Federal agency.
    The idea that GAO can pinpoint that 25 percent of the 
officers say LEO is important to them is one that I think is a 
statistic that should not be lost on anyone, and hopefully 
Congress will take appropriate action to give the long overdue 
law enforcement officer status to these officers that they 
deserve.
    Senator Akaka. Ms. Kelley, your written testimony notes the 
decrease in secondary inspections. GAO's report also observes 
that CBP's antiterrorism and other traveler inspection programs 
are not fully carried out due to understaffing.
    Do you believe that CBP cuts back on secondary inspections 
to deal with short staffing?
    Ms. Kelley. I do at times. I believe they make decisions 
every day about what work will be done and what work will not 
be done because of the staffing problem that is now 
acknowledged. There are 1,000 vacancies that are funded. There 
is no reason in my mind that they are not filled, and efforts 
to get additional funding for them for the 4,000 positions we 
think are needed. But absolutely, I think every day--I have 
been to ports where if a flight is coming in and it has to 
clear in 45 minutes and they are at minimal staffing, everyone 
is pulled to clear that flight, from cargo, from secondary, 
from everywhere. It is an operational decision that they make 
because they do not have the staffing that they need.
    Senator Akaka. Whenever there are reports or news of poor 
traveler inspections, front-line CBP officers often receive the 
blame. I understand that many ports of entry do not have enough 
inspection booths, forcing travelers to wait in long lines. You 
testified that CBP's emphasis on reducing wait times creates a 
challenging work environment for CBP officers.
    Are the officers you represent being pressured to conduct 
inspections quickly at the expense of being thorough?
    Ms. Kelley. I believe so. Many of them, if asked a question 
in an environment where they could answer it, would tell you 
yes, depending on the day. They very often feel they are not 
allowed to take the time that in their professional judgment is 
needed to ask all the questions and to have the conversation 
with the passenger that they think is needed to ensure they are 
making the right decision on entry or not.
    When you have the pressure of wait times, whether it is on 
a bridge or at the airport, and management says move the line, 
you have to move the line in a shorter time, and that means you 
cannot spend the 2 or 3 minutes that you would to notice 
behaviors, to ask questions, to look at documents. You have 
heard the testimony of how many different documents there are 
that can be used to enter the country today, and in many cases, 
officers report they have 1 minute to spend, if not less than 1 
minute, with each passenger, that they are making a conscious 
decision about whether to let into the country or not. So it is 
a very real factor.
    Senator Akaka. Are these time goals enforced? For example, 
do CBP officers' performance evaluations reflect how quickly 
they inspect travelers? You mentioned 1 minute. Is that 
prevalent?
    Ms. Kelley. Again, it depends on the day and the port, but 
it is not unusual that officers are visited by a supervisor and 
they are told to speed up the line, which means take less time 
with each passenger that is coming through.
    As far as the airports, a while ago I asked CBP, I said, 
``I keep hearing about this 45 minutes. Is there some rule that 
it has to be cleared in 45 minutes?'' And they assured me there 
was no such rule.
    What I then found out was while there might not be a rule, 
if a flight goes over 45 minutes, a report is initially 
triggered back to CBP headquarters, who, of course, is calling 
the port saying, ``Why is it taking you more than 45 minutes?''
    So while there is nothing that says you have to clear the 
flight, if you do not, you have to explain why you did not. And 
most ports and port directors do not want to call that 
attention to themselves, so they move the flight.
    Senator Akaka. Ms. Kelley, you testified that CBP no longer 
gives officers input into their schedules. Could you say a bit 
more about how scheduling used to work, how it changed, and why 
this is a concern for CBP officers?
    Ms. Kelley. The right of CBP to establish schedules, what 
hours a port will be covered--and more and more ports, of 
course, are on 24/7 coverage. But it is the right of management 
to determine what hours they need coverage, how many employees 
they need to do the work, and what the qualifications are of 
those employees. That has always been a management right.
    What used to happen then was once the shifts were 
established, employees would exercise their right to bid--we 
called it a ``bid process''--to where they would say they would 
like to work 4 to 12 or midnight to 8 or 8 to 4, whatever the 
shift was, and they had the right to say that because it was 
good for morale, it helped them to balance their family issues, 
whether they had working spouses or transportation issues or 
elder issues, or whatever it was.
    A few years ago, CBP decided that input would no longer be 
allowed and that managers would just assign employees to 
shifts. There used to be a process that allowed employees to 
swap shifts, and that still ensured the coverage and everything 
that management mandated and had a right to mandate. It is very 
difficult in most ports today to swap shifts.
    So management has taken away that right--I would say not 
for a business reason. It is about control. They just want to 
be able to dictate to the employees. And they do not want to 
have to go through the work of working with the employees, 
which would really be a huge increase in their morale if a 
process like that were put back in place, for all the obvious 
reasons.
    I would say whether you work as a CBP officer or at any job 
anywhere, the idea that you would be able to express a 
preference for what shift works better for you, and then even 
if you do not get the shift that you wanted, at least there is 
a clear, transparent process that you say at least it was a 
fair process, and then maybe the next time I would get my 
preferred shift. And that is not how it operates today.
    Senator Akaka. Well, I noted your comments on the need for 
labor-management partnerships. I agree with you that this is 
important, and I want to thank you for your support of my bill 
to reinstate those partnerships.
    Ms. Kelley. In fact, I was remiss in my opening, Mr. 
Chairman, in not thanking you for introducing that bill, 
because you do clearly recognize the value that it brings not 
just to the employees but to the Department and to all of our 
citizens who are depending on the work of the Department of 
Homeland Security. So I thank you for your leadership in 
introducing the bill, and we are going to help you do 
everything possible to make it a reality.
    Senator Akaka. Well, I want to thank all of our witnesses 
again for the time you spent preparing and presenting this 
valuable information to this Subcommittee. We appreciate the 
hard work that you do to improve Customs and Border Protection.
    Today's hearing highlights the need to really focus on 
making CBP an attractive place to work. CBP must address its 
staffing, training, and morale problems. This is not merely a 
matter of being a responsible employer. The human capital 
problems at CBP undermine thorough inspections and create a 
serious homeland security risk.
    One small step that I hope we will take soon is providing 
law enforcement benefits to CBP officers. Furthermore, I 
believe that it is time that we look closely at the 
infrastructure at land border crossings. We must invest the 
resources to modernize our ports of entry, to permit thorough 
and efficient inspections, in an atmosphere that is inviting to 
visitors and a more attractive work environment for CBP 
officers.
    This Subcommittee will continue its attention to CBP 
inspections at our Nation's ports of entry in the future. The 
hearing record will be open for 1 week for additional 
statements or questions other Members may have, and, again, my 
thanks to all of you for making this valuable hearing.
    The hearing is adjourned.
    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]




















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
